mwe.com
Michael B. Kimberly
Attorney at Law
mkimberly@mwe.com
+1 202 756 8901

January 17, 2020
BY MAIL & ELECTRONIC FILING
Scott S. Harris, Clerk
Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re:

Arizona v. Nunez-Diaz, No. 19-645

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on November
14, 2019. Respondent’s brief in opposition is presently due, after one extension, on January 21,
2020. I write to request a further extension of time to and including February 20, 2020 within
which to file a response. This extension is necessary in light of the press of other matters,
including the recent oral argument in Lucky Brand Dungarees v. Marcel Fashions, No. 18-1806.
Counsel for petitioner consents to the requested further extension of time.
Thank you for your attention to this matter.
Sincerely,

_______________________
Michael B. Kimberly
cc: counsel of record for petitioner

500 North Capitol Street, NW Washington DC 20001-1531 Tel +1 202 756 8000 Fax +1 202 756 8087
US practice conducted through McDermott Will & Emery LLP.

